Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Harold Gashe v. United States of America,
S.Ct. No. 20-8284
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 19, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on September 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

20-8284
GASHE, HAROLD
USA

HAROLD GASHE
03501-029
PO BOX 3000
FORREST CITY, AR 72336

